SIGAR                            Special Inspector General for
                                  Afghanistan Reconstruction




                                           SIGAR 14-31 Inspection Report



      SALANG HOSPITAL: LACK OF WATER AND
      POWER SEVERELY LIMITS HOSPITAL
      SERVICES, AND MAJOR CONSTRUCTION
      DEFICIENCIES RAISE SAFETY CONCERNS




                                                 JANUARY

                                                    2014
SIGAR 14-31-IP/Salang Hospital
 SIGAR
                                                   January 2014
                                                   Salang Hospital: Lack of Water and Power Severely Limits Hospital
                                                   Services, and Major Construction Deficiencies Raise Safety Concerns
                                                   SIGAR 14-31 INSPECTION REPORT


 Special Inspector General for                     WHAT SIGAR FOUND
 Afghanistan Reconstruction                        Salang hospital was not built in accordance with contract requirements. In
                                                   mid-2012, a U.S. Forces-Afghanistan (USFOR-A) task force inspected the site
 WHAT SIGAR REVIEWED                               during construction and found a number of deficiencies, including water,
                                                   sewer, electrical, and heating systems that were incomplete or needed
 On September 11, 2009, Bagram                     repair. The task force noted the inhabitants of Salang district would have
 Regional Contracting Center awarded a             inadequate access to healthcare until construction deficiencies were
 firm fixed-price contract (W91B4N-09-C-           remedied and missing equipment provided. In November 2012, the
 RP37) to Shafi Hakimi Construction                contractor was paid in full. However, SIGAR’s November 2013 inspection
 Company, an Afghan company, for                   found that the deficiencies identified by the task force had not been
 $597,929 to provide labor, materials,             corrected. For example, the water well, solar power system, and second 30
 and equipment to construct and furnish            kilowatt generator required by the contract had not been provided. Because
 the 20-bed Salang hospital. The CERP-             there was no clean water, staff at the hospital were washing newborns with
 funded contract, with a 365-day period of         untreated river water. SIGAR’s inspectors identified additional problems. For
 performance, specified construction of a          example, the original design drawings called for three one-story buildings—a
 hospital including surgical and X-ray             15-room hospital, a four-stall toilet, and a guard shack—but SIGAR found that
 areas, a pharmacy, a laboratory, wards            a single, poorly constructed, two-story building had been built.
 for men and women, as well as areas for
                                                   Due to the absence of project design and other required documents, the
 pediatric, dental and mental health
                                                   inspection team was unable to fully assess the quality of construction.
 services. The contract also required the
                                                   However, SIGAR’s inspection also found significant safety issues with the
 installation of electrical, water and septic
                                                   two-story construction. A 3-inch wide vertical expansion joint basically cut the
 systems, as well as a separate building
                                                   hospital in half, effectively making it two buildings under one corrugated
 with toilet facilities and a guard shack. In
                                                   metal roof. Unreinforced brick walls between concrete columns made up
 September 2012, the Governor of
                                                   most of the hospital’s outer structure. Since Salang district is located in one
 Parwan province took possession of the
                                                   of the most active seismic zones of Afghanistan, these problems with the
 hospital, which began accepting patients
                                                   structural integrity of Salang hospital increase the risk of structural collapse
 in January 2013.
                                                   during an earthquake.
 For this inspection, SIGAR assessed
                                                   SIGAR also found that the Salang hospital was not providing many of the
 whether (1) construction had been
                                                   services it was intended to provide, that hospital staff were only using about
 completed in accordance with contract
                                                   35 percent of the square footage of the constructed facility, and that the
 requirements and applicable construction
                                                   hospital employed less than 20 percent of the staff it was expected to
 standards, and (2) the facilities were
                                                   employ. According to the doctors and nurses on site, the limited use—due
 being used as intended and maintained.
                                                   primarily to the lack of electricity, water, furniture, and equipment—has
                                                   prevented them from providing optimal medical care. For example, the
                                                   limited electricity—one light bulb in each of the rooms being used—has made
                                                   it difficult to treat patients.
WHAT SIGAR RECOMMENDS
SIGAR recommends that the Commanding General, USFOR-A, direct the appropriate USFOR-A units to take the following steps and
report back to SIGAR within 90 days: (1) identify the contracting officer(s) responsible for oversight of the Salang hospital
construction activities and determine: (a) why the hospital was not built according to contract specifications and acceptable
construction standards; (b) why required documents were not placed in the CIDNE database; and (c) what disciplinary action, if any,
should be taken against the contracting officer(s) responsible for failing to provide required oversight; (2) perform a physical
inspection of the building, including appropriate engineering tests and analyses, and, given its location in a high seismic activity
zone, determine what corrections are required to ensure the structural integrity of the building. USFOR-A was unable to provide
formal comments on a draft of this report before it was issued, despite having more than the 14 days that SIGAR typically provides
agencies to comment on inspection reports. Once USFOR-A provides comments, they will be posted separately on our website at
www.sigar.mil, along with SIGAR’s response.
        For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
January 29, 2014


General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General Mark A. Milley
Commander, International Security Assistance Force Joint Command, and
   Deputy Commander, U.S. Forces–Afghanistan

Major General James M. Richardson
Deputy Commander, Joint Operational Corps Headquarters-Afghanistan, and
  Commander, U.S. National Support Element Command–Afghanistan


This report discusses the results of SIGAR’s inspection of the Salang hospital in the village of
Bagh e Maden, Salang district, in Parwan province. The Commander’s Emergency Response
Program funded this project. SIGAR recommends that the Commanding General, U.S. Forces-
Afghanistan (USFOR-A), direct the appropriate USFOR-A units to take the following steps, and
report back to SIGAR within 90 days: (1) identify the contracting officer(s) responsible for
oversight of the Salang hospital construction activities and determine: (a) why the hospital was
not built according to contract specifications and acceptable construction standards; (b) why
required documents were not placed in the CIDNE database; (c) what disciplinary action, if any,
should be taken against the contracting officer(s) who failed to provide required oversight; (2)
perform a physical inspection of the building, including appropriate engineering tests and
analyses, and, given its location in a high seismic activity zone, determine what corrections are
required to ensure the structural integrity of the building.
USFOR-A was unable to provide formal comments on a draft of this report before it was issued,
despite having more than the 14 days that SIGAR typically provides agencies to comment on
inspection reports. Once USFOR-A provides comments, they will be posted separately on our
website at www.sigar.mil, along with SIGAR’s response.
SIGAR conducted this inspection under the authority of Public Law No. 110-181, as amended;
and the Inspector General Act of 1978, as amended; and in accordance with the Quality
Standards for Inspection and Evaluation, published by the Council of the Inspectors General on
Integrity and Efficiency.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS



Background .................................................................................................................................................................. 1

Salang Hospital Facilities Were Not Constructed in Accordance with Contract Requirements, and Missing
Documentation Prevented a Complete Inspection .................................................................................................... 1
Salang Hospital Is Not Being Used as Intended and Operates Below Capacity ...................................................... 6

Conclusions .................................................................................................................................................................. 7

Recommendations ...................................................................................................................................................... 7

Agency Comments ....................................................................................................................................................... 8

Appendix I - Scope and Methodology ......................................................................................................................... 9

Appendix II - Comparative Building Footprints ......................................................................................................... 10
Appendix III - Construction that Deviated from Contract Requirements ................................................................ 11

Appendix IV - Commander’s Emergency Response Program Documentation ....................................................... 12

Appendix V - Acknowledgments ................................................................................................................................ 14


TABLES

Table 1 - SIGAR List of Deficiencies .......................................................................................................................... 11
Table 2 - Documentation Check List......................................................................................................................... 12


FIGURES

Figure 1 - Location of Earthquakes in Afghanistan from 1964 through 2004 ........................................................ 4


 PHOTOS

Photo 1 - 20-Bed Salang Hospital............................................................................................................................... 1

Photo 2 - Leaky Roof Damages Ceilings and Walls ................................................................................................... 2

Photo 3 - Excessively Wide Expansion Joint .............................................................................................................. 5

Photo 4 - Propane Supply for Refrigerator ................................................................................................................. 6




SIGAR 14-31-IP/Salang Hospital                                                                                                                                         Page i
ABBREVIATIONS & ACRONYMS

            CERP                 Commander’s Emergency Response Program

            CIDNE                Combined Information Data Network Exchange

            USFOR-A              U.S. Forces-Afghanistan




SIGAR 14-31-IP/Salang Hospital                                                Page ii
The Department of Defense’s Commander’s Emergency Response Program (CERP) provides unit commanders
with funds to respond quickly to urgent humanitarian relief and reconstruction needs in Afghanistan. CERP
funds have been used for a variety of projects, including public roads, schools, and medical clinics. This CERP
project, a 20-bed hospital in the village of Bagh e Maden in Salang district, Parwan province, was part of the
Ministry of Public Health’s (Ministry) plans to place hospitals in four strategic districts in Parwan province to
help ensure that more remote areas would receive adequate healthcare. The May 2009 justification for CERP
funding of the hospital reported that people from Salang had to leave the district to receive health care such as
surgery and advanced diagnostic care that could not be provided at the local clinic.
For this inspection, we assessed whether (1) construction had been completed in accordance with contract
requirements and applicable construction standards, and (2) the facilities were being used as intended and
maintained.
We conducted our work in Kabul, Afghanistan, and at Salang hospital from October 2013 through January
2014, in accordance with the Quality Standards for Inspection and Evaluation, published by the Council of the
Inspectors General on Integrity and Efficiency. The engineering assessment was conducted by professional
engineers in accordance with the National Society of Professional Engineers’ Code of Ethics for Engineers.
Appendix I contains a more detailed discussion of our scope and methodology.


BACKGROUND

On September 11, 2009, Bagram Regional Contracting          Photo 1 - 20-Bed Salang Hospital
Center awarded a firm fixed-price contract (W91B4N-09-
C-RP37) to Shafi Hakimi Construction Company, an
Afghan company, for $597,929 to provide labor,
materials, and equipment to construct and furnish the
20-bed Salang hospital (see photo 1). The CERP-funded
contract, with a 365-day period of performance,
specified construction of a hospital, including surgical
and X-ray areas, a pharmacy, a laboratory, wards for
men and women, as well as areas for pediatric, dental
and mental health services. The contract also required
the installation of electrical, water and septic systems,
as well as a separate building with toilet facilities and a
guard shack. The hospital was expected to serve the
50,000 inhabitants of Salang district and employ about      Source: SIGAR, November 27, 2013
150 doctors, nurses, midwives and other staff. In
September 2012, the Governor of Parwan province took
possession of the hospital, which began accepting patients in January 2013.


SALANG HOSPITAL FACILITIES WERE NOT CONSTRUCTED IN ACCORDANCE
WITH CONTRACT REQUIREMENTS, AND MISSING DOCUMENTATION
PREVENTED A COMPLETE INSPECTION

The Salang Hospital has a history of construction problems. During the 3-year period from contract signing to
the Ministry’s acceptance of the hospital, the Parwan Provincial Reconstruction Team 1 performed at least 15


1 Provincial Reconstruction Teams in Afghanistan are led by military officers supported by teams of specialists, which

typically include civilians from the Department of State, U.S. Agency for international Development, and other U.S.
government agencies. These small joint civilian-military teams work in provinces across the country to improve security,
expand the reach of the Afghan government, and assist with reconstruction.

SIGAR 14-31-IP/Salang Hospital                                                                                       Page 1
site visits to the hospital. Although the team’s site inspection reports contained some comments indicating
that the quality of work observed was good, they also identified a number of problems, including (1)
unspecified problems with two support columns, (2) improper spacing of rebar in concrete forms, (3)
noncompliance with the structural design of the roof, and (4) absence of a quality control plan, work plan,
safety plan, and drawings on-site during construction work.
In mid-2012, a U.S. Forces-Afghanistan (USFOR-A) task force also inspected the hospital while it was still under
construction and documented a number of construction deficiencies. For example, the task force found the
potable water, sewer, and electrical and heating systems were incomplete or needed repair. It also found
missing safety items, such as stair railings, smoke detectors, and exit and emergency lighting. The task force
also documented that the roof was leaking, causing mold and mildew, and that the hospital needed to provide
scrubable surfaces in high-risk sterile areas like the surgery room to facilitate disinfection. To correct these
deficiencies, in May 2012, the task force submitted a letter of justification to the Commander, U.S. Central
Command, requesting $383,035.89 in additional CERP funding for the installation or repair of various systems
for the hospital. It noted that without the installation and repairs, the inhabitants of Salang district would have
inadequate access to healthcare.
In November 2012, the contractor received a final payment of $74,741, completing full payment under the
contract totaling $597,929.
We conducted our inspection of Salang hospital on November 27, 2013. Based on our observations and
review of available contract documents, we found that, although the contractor had been paid in full, the
additional CERP funding requested in May 2012 had not been provided, and the deficiencies identified by the
task force had not been corrected. For example, we found the following problems, which the task force had
also found during its 2012 inspection:

    • The contract’s statement of work required the drilling of a water well, construction of a well house, and
      establishment of a process to ensure that hospital water lines were disinfected. However, we found that
      the water well was not provided. Instead, the
      hospital uses a small generator and small pipe to
      pump water from a nearby river to a holding tank
                                                              Photo 2 - Leaky Roof Damages Ceilings and
      in the hospital’s attic. The water is then gravity fed
      through pipes when needed in the hospital.
                                                              Walls
      Hospital staff told us that, as a result, patients,
      including newborn infants, are washed in
      untreated river water.
    • The hospital staff told us the hospital roof was
      leaking, causing mold and mildew on the ceiling
      and walls. Our inspection confirmed the presence
      of mold and mildew (see photo 2). The statement
      of work required that the concrete roof slab be
      hot-tarred to provide waterproofing prior to
      installing wooden trusses to support the
      corrugated metal roof. Photos contained in the
      contract files show that the hot-tarring was not
      done. Photos also show that the wooden trusses
      on top of the concrete slab roof were not covered
      with plywood and tar paper, as required. Our
      inspection confirmed these construction                   Source: SIGAR, November 27, 2013
      deficiencies.




SIGAR 14-31-IP/Salang Hospital                                                                              Page 2
    • Hospital staff stated they believe the hospital’s septic tank is leaking. The staff told us that, to the best
      of their knowledge, no leach field 2 was built for the septic tank.
    • The statement of work required the contractor to provide two 30-kilowatt diesel generators, but we
      found that only one was provided. Hospital staff told us that the generator is not being used because
      there is no budget for the fuel costs.
We also identified a number of deficiencies that the task force had not found, including the following:
    • The original design drawings called for a one-story, 15-room hospital building; a one-story four-stall
      toilet facility; and a guard shack. However, we found that a two-story building had been built. It was an
      18,300-square-foot structure, more than three times larger than the 5,300-square-foot building called
      for in the original design plans. We could not find any documentation showing that the Bagram
      Regional Contracting Center contracting officer had modified the contract to approve the two-story
      building, as was required under the contract. 3 According to a Provincial Reconstruction Team record of
      a meeting with an Afghan Ministry of Public Health official, the Department of State member of the
      team stated that the Ministry and the provincial government approved the alternate design; however, no
      documentation exists to confirm that these officials approved the design. The State Department
      representative also noted that the alternate design was necessary because the hospital’s irregularly
      shaped lot would not accommodate the design called for in the contract documents. However, it is
      unclear to us why the lot could not accommodate the hospital as originally designed, but could
      accommodate a facility that had a larger footprint than was called for under the contract. See Appendix
      II for a comparison of the originally-designed building’s footprint and that of the building that was
      actually constructed.

    • The statement of work also required the installation of a solar power system and supporting structure
      to provide the hospital up to 30 kilowatt hours of electricity per month. We found that the solar power
      system was not provided. The hospital staff told us they are paying the equivalent of about $18 a
      month of their own money to a neighbor to provide enough electricity to operate one light bulb in each
      of three hospital rooms. In addition, the hospital staff stated that insufficient electricity affects their
      ability to provide basic hospital services, such as X-rays. While inspecting the exterior of the hospital we
      observed electrical wiring several hundred feet long from a neighboring property to the hospital. The
      electrical wiring was draped over trees and other obstacles. It appeared to be a temporary remedy. We
      did not see it secured to anything at any point of its length.


Construction Deficiencies Combined with Seismic Activity in Salang District Raise
Safety Concerns
Shafi Hakimi Construction Company’s construction of a two-story hospital building, rather than the one-story
hospital building required under the contract, and without documented structural calculations, raises serious
safety concerns. Salang district is located in one of the most dangerous seismic zones of Afghanistan, near the
intersection of the Chaman, Hari Rud, and Central Badakhshan fault lines, an area subject to relatively
frequent and intense seismic events. The U.S. Geological Survey has reported that earthquakes represent a
serious threat to the people and institutions of Afghanistan and have killed more than 7,000 Afghans from


2 A leach field is typically installed with a septic tank for subsurface disposal of liquid waste. Multiple perforated pipes

buried under ground allow the wastewater to leach into the surrounding ground. The absence of a leach field requires the
septic tank to be pumped out periodically.
3 Under the contract, the contractor could propose an alternate design or use of products more common in the region that

would be equally or more cost effective or allow for more timely completion, but that would also furnish the same system
durability, ease of maintenance and environmental compatibility. To do so, the contractor was required to provide
information, as requested by the contracting officer, to make a comparison of the proposed alternate design or products.
The contract also required that all such variations be approved by the contracting officer in writing. However, we found no
written approval by the contracting officer or documentation pertaining to the alternate building design.

SIGAR 14-31-IP/Salang Hospital                                                                                         Page 3
1997 to 2007. 4 Substandard construction that does not meet industry earthquake standards 5 exposes the
structures involved to increased earthquake vulnerability. Figure 1 shows the proximity of Salang hospital in
relationship to the intersection of the Chaman, Hari Rud, and Central Badakhshan fault lines and the location
of earthquakes that have occurred in Afghanistan from 1964 through 2004.



Figure 1 - Location of Earthquakes in Afghanistan from 1964 through 2004




Source: U.S. Geological Survey Modified by SIGAR



According to U.S. Geological Survey data, Salang hospital is located in the second highest seismic intensity
zone in Afghanistan. The Chaman and Badakhshan fault lines represent the centerline of a 15 to 25 kilometer
wide swath of potential destruction during a seismic event. The U.S. Geological Survey characterizes the
seismic activity and potential damage for this zone as Level IX out of X. Level IX activity is described as: “Violent
shaking with people forcibly thrown to the ground, monuments and columns fall, and most unreinforced
masonry buildings will suffer heavy to very heavy structural damage.”
During our inspection, we identified two major issues with Salang hospital’s construction that increase the risk
of a structural collapse during a seismic event.
       •   First, we observed a vertical expansion joint that basically cuts the hospital structure in half (see photo
           3). The gap is about 3 inches wide and has no concrete or reinforcing steel providing a connection
           across the joint. In essence, the hospital consists of two separate buildings under one corrugated
           metal roof. Due to missing design documents, we do not know whether the expansion joint was a


4   U.S. Geological Survey, Open-File Report 2007-1137, Preliminary Earthquake Hazard Map of Afghanistan, 2007.
5At the time the contract was awarded, USFOR-A Publication 1-06, Money As A Weapon System – Afghanistan, May 15,
2009, required that the unit commander “ensure construction meets engineering standards,” which are stated in the
publication.

SIGAR 14-31-IP/Salang Hospital                                                                                    Page 4
            requirement. However, based on the industry
            standards 6 for design, only very large or very
            long structures would normally have this type of       Photo 3 - Excessively Wide Expansion Joint
            an expansion joint. Our engineers believe that
            the existence of this 3-inch wide expansion
            joint and the fact that it is unreinforced makes
            the hospital highly susceptible to earthquake
            damage.
       •    Second, the risk to the hospital’s structural
            stability is heightened by unreinforced brick
            walls between concrete columns, which make
            up most of the hospital’s outer structure.
            Industry standards 7 for design do not allow the
            use of unreinforced masonry walls in buildings
            in this seismic design category. 8 We found that
            problems already exist with cracks at the
            corners of the brick walls and where the brick
            walls and concrete corners intersect. Further,        Source: SIGAR, November 27, 2013
            the hospital’s structure that resists
            earthquakes and vertical loads, such as snow, furniture, equipment, and people, consists of a system
            of reinforced concrete columns and beams combined with reinforced concrete slabs at the floor and
            roof levels. The unreinforced brick walls rest on the floor and extend to the ceiling between columns.
            As a result, when ground motion occurs—like during an earthquake—the brick walls are at high risk of
            collapse.


Missing Documentation Prevented a Complete Hospital Inspection
We were not able to fully assess the quality of construction for Salang hospital, due to missing project
documentation. Our inspections normally include the review of project design, planning, construction,
oversight, and related documents. USFOR-A CERP guidance requires that projects be properly documented and
continually monitored and maintained from project nomination to closure or turnover, to include uploading
project files into the CIDNE database. 9 However, we found that 10 of the 25 documents (40 percent) required
to support the hospital project were missing from the CIDNE database. 10 For example, the statement of work
and design documents for the original hospital design was contained in the CIDNE database, but we did not
find design documents for the two-story hospital that was actually constructed. In addition, documents such as
the cost estimate, operation and maintenance manuals, as-built drawings, a “punch list” 11 identifying any
deficiencies, and final inspection and completion letters were missing from CIDNE. Due to the missing

6   Ibid.
7 Ibid.
8 Seismic design categories are determined based on the importance of the structure, site soil properties, and the mapped
horizontal spectral response acceleration (or seismic ground motion values).
9 See USFOR-A Publication 1-06, MAAWS-A, May 15, 2009, which provides guidance on the CERP program that requires all

CERP projects to be updated in CIDNE.
10 Missing project documentation is not a new issue to CERP. As early as 2009, SIGAR reported that CERP program officials

were not complying with requirements to enter project information into the database: SIGAR Audit 09-05, Increased
Visibility, Monitoring, and Planning Needed for Commander’s Emergency Response Program in Afghanistan, September
2009. The report noted that, while the Department of Defense had required monthly input on CERP projects into the
Department of Defense electronic data management system, this was often not done.
11 A punch list is a document listing work that does not conform to contract specifications, usually attached to the

certificate of substantial completion. MAAWS-A, May 2009, notes that the final punch list should also include a notice of all
deficiencies have been corrected and accepted.


SIGAR 14-31-IP/Salang Hospital                                                                                        Page 5
documents, we were not able to fully evaluate the contractor’s adherence to technical specification
requirements and contracted design standards.
Without design documents, as-built drawings, and structural calculations for Salang hospital, as constructed,
we cannot conclusively determine whether the building is structurally sound or whether a cost analysis of the
substitution was made with a determination that it was beneficial to the U.S. government. Appendix III lists
instances in which construction deviated from contract requirements. Appendix IV contains a more detailed
discussion of the missing project documents in the CIDNE database.


SALANG HOSPITAL IS NOT BEING USED AS INTENDED AND OPERATES BELOW
CAPACITY

Salang hospital is not providing many of the services it was intended to provide and is operating well below its
capacity. As noted earlier, the hospital was designed to provide surgical and X-ray services, a pharmacy, and a
laboratory, as well as pediatric, dental and mental health services. Although the hospital treats about 70
patients per day and is open 24 hours a day with staff available for night-time emergencies, it does not and
cannot provide many of these intended services. For example, the doctors we spoke to on site confirmed they
are not qualified surgeons, and the hospital does not have a functioning surgery unit. In addition, the X-ray
machine is stored in a locked room and is not used
because parts are missing and there is not enough           Photo 4 - Propane Supply for Refrigerator
electricity to operate it. The hospital staff also told us
the ministry provides some medicine and vaccines,
but without electricity it is hard to refrigerate them. As
a “work around” measure, the hospital is using a
propane-operated cooler for vaccine storage (see
photo 4).
Salang hospital staff told us they are using about 35
percent of the square footage of the constructed
facility. They advised that the limited use was due to a
number of factors, but primarily due to the lack of
electricity, water, furniture, and equipment. For
example, with only three light bulbs in the entire
facility, the staff’s ability to provide medical care at
night is limited. The hospital staff also told us they
were not using any of the rooms on the hospital’s            Source: SIGAR, November 27, 2013
second floor because they were not fully using the
downstairs yet. They added that using the interior stairs to move between the first and second floors is
dangerous due to the lack of hand rails. Further, a steep flat surface constructed in the center stairway,
presumably for moving wheelchair and gurney-bound patients, cannot be used safely because of the
steepness of the incline and lack of hand rails.
Finally, the hospital staff reported that currently about 25 medical and other staff members are employed at
the hospital. This is less than 17 percent of the 150 staff members that the CERP funding documents reported
the Salang hospital would employ. The Ministry pays the hospital staff salaries, including those for the doctors,
dentist, and midwives.




SIGAR 14-31-IP/Salang Hospital                                                                               Page 6
CONCLUSIONS

Salang hospital is functioning more as a medical clinic than as a hospital with surgical and diagnostic care. The
hospital building was not constructed according to the contract requirements. Most notably, there is no clean,
permanent water supply and virtually no electrical power. As a result, patients, including newborn babies, are
bathed in untreated river water and, at night, only three light bulbs provide illumination to treat emergency
patients. The doctors and nurses at the hospital pay for that limited electricity themselves. Despite the water,
electrical and other construction deficiencies found during our inspection, the contractor was paid the full
amount of the contract—over half a million dollars. Thus, we conclude that the contractor was overpaid.
Although we identified a myriad of deficiencies, our inspection was limited due to the large number of missing
construction documents, the lack of electricity and water (which precluded us from inspecting the electrical
and plumbing systems). While a design change from a one-story to a two-story building may have been
necessary, we could not find any of the required documentation to show that appropriate U.S. officials
approved the change or that the required cost or engineering analysis associated with the change was
conducted. It is our judgment that this lack of information and oversight has led to a potentially dangerous
situation in which the hospital has construction deficiencies that could affect its structural integrity, particularly
during earthquakes, which occur frequently in Afghanistan.
The staff of Salang hospital should be commended for making the best of the limited facility. However, the
hospital does not serve the medical needs of the people of Salang district as intended and may be a danger to
its patients and staff because of the potential for the structure’s collapse in an earthquake.


RECOMMENDATIONS

To ensure that the Salang hospital is useful, safe, and sustainable for the Afghan people, and to protect the
U.S. government's investment, we recommend that the Commanding General, USFOR-A, direct the appropriate
USFOR-A units to take the following steps, and report back to SIGAR within 90 days:
    1. Identify the contracting officer(s) responsible for oversight of the Salang hospital construction activities
       and determine:
         (a) why the hospital was not built according to contract specifications and acceptable construction
             standards;
         (b) why required documents were not placed in the CIDNE database;
         (c) what disciplinary action, if any, should be taken against the contracting officer(s) who failed to
             provide required oversight.
    2. Perform a physical inspection of the building, including appropriate engineering tests and analyses,
       and, given its location in a high seismic activity zone, determine what corrections are required to
       ensure the structural integrity of the building.




SIGAR 14-31-IP/Salang Hospital                                                                                 Page 7
AGENCY COMMENTS

We provided USFOR-A with a draft of this report for its review and comment. However, USFOR-A was unable to
provide formal comments on a draft of this report before it was issued, despite having more than the 14 days
that SIGAR typically provides agencies to comment on inspection reports. Once USFOR-A provides comments,
they will be posted separately on our website at www.sigar.mil, along with SIGAR’s response.
Although we received a copy of draft, unsigned comments from U.S. Central Command Joint Theater Support
Contracting Command and the Chief of Staff of the Combined Joint Task Force-101, they were not addressed
to SIGAR and did not appear to be coordinated with, or made on behalf of USFOR-A, to whom our
recommendations were directed. As such, we did not incorporate them into our report.




SIGAR 14-31-IP/Salang Hospital                                                                         Page 8
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the inspection results of a Commander’s Emergency Response Program (CERP)-funded
contract (W91B4N-09-C-RP37) to construct a 20-bed hospital in Bagh e Maden village, Salang district, of
Parwan province. To determine whether construction was completed in accordance with contract requirements
and applicable construction standards, and the facilities were being used as intended and sustained, we
    •   reviewed available contract documents to understand project requirements and contract
        administration;
    •   interviewed cognizant U.S. and Afghan officials concerning the construction, and operation and
        maintenance of the hospital; and
    •   conducted a physical inspection and photographed the hospital to observe the quality of construction
        and determine the sustainability of the facility.
During our inspection, we noted that project documentation in the Department of Defense’s Combined
Information Data Network Exchange (CIDNE) database was incomplete and did not comply with CERP
requirements. As a result, we were unable to fully assess whether the construction of the facility was
conducted and completed in accordance with the terms and conditions of the contract and construction
standards.
We conducted our work in Kabul, Afghanistan, and at Salang hospital from October 2013 through January
2014, in accordance with the Quality Standards for Inspection and Evaluation, published by the Council of the
Inspectors General on Integrity and Efficiency. The engineering assessment was conducted by professional
engineers in accordance with the National Society of Professional Engineers’ Code of Ethics for Engineers. We
did not rely on computer-processed data in conducting this inspection. However, we considered the impact of
compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. We conducted this inspection under the authority of Public Law No. 110-181, as
amended; and the Inspector General Act of 1978, as amended.




SIGAR 14-31-IP/Salang Hospital                                                                           Page 9
APPENDIX II - COMPARATIVE BUILDING FOOTPRINTS




                                 '"'
                                 ~
                                             "'"''~~-------...~--.. ,
                                                "" " "" "
                                     ..... ..........          "" ~                     0

                                 ~'    "", .". . . . .'"' '' """' "" "':'1:'i
                                                , , . . "'"
                                 ~~ "' ""' ............... . ' " "'"   '
                                                                    '-"J
                                       "'"            ,,,
                                  ~" , ..... , "' " "' ' ~
                                                               "'  "  '::i              0

                                 ~" "          , , ,, "" "
                                                 .....                .....
                                 tt----"'"
                                        , . . . . . "'""'"
                                                     , . . . , "' ""',..J'I
                                       ' , . . . , " ' " .......... . . . '-l           0

                                 I'""
                                  ~' "'"  "'"   "''"',,"'""'""'   "' "' ~.J
                                                              .....
                                  t--' ' '"' , . . . . . "'"
                                 t--''",'"". . . . . . , . . . . . . . . . ,~           0
                                                                                            "'
                                 ~ ""'   '~(.;) 15'
                                      "' '\.0   C/)'"" """
                                                         """" "'           ' ~
                                                                             'i             ~
                                 ~' '' , __
                                                                                            ::0
                                    '       ~z' ' '"' ' ,,'i
                                                       "             "                  0   ~
                                 ~ ''''\. '\,CD i!='
                                 \                  - , '\. ' ' '\.
                                                 :::l                    ' '\. ' ' '1             b
                                       ' '     ,~
                                 ~ ' ' ',~ z'' ' '' '' '''' '1
                                                    3: ' ''
                                                                                        8
                                                                                                  "'
                                                                                                   u
                                                                                                  ·~
                                 1-.' ' '' ,_       C/)'' ,' ', '' ' ,' ,,' :i'l~
                                                                                                  ~
                                 ~ , ,          (3  Q'
                                                o:::w
                                   , , '\. '\.o a , '\. '- '\. '
                                 f..'~ \.' ,' ,,,
                                 ~,,
                                               ''~,"
                                                ,, , ,,,'........... . . ,,
                                                                         ' ,,, ... ~
                                                                           ' ",::i
                                 t--' ,,
                                      ' ' ,,,,,,
                                              . . . ,,,"' "'~                               0

                                 t--' ' ' ' ' ' ' ' , ' " '..J
                                 1\. "'' '"' ,,, ,,
                                 r- ',',',' , ' , ',
                                                '", , ", " ,' -.J.J
                                          ' , ,,,
                                 r- ' "', ,,  ,, , ,,,
                                                   ,, ~
                                 ~ ,,

                                     "'' , ,, , , , , ,~
                                 D__,. ~ ~ ~ ~ ~ -'- ~ ~ ,._ \J




Source: SIGAR Inspection and Analysis (Not to scale)

Note: The outer black lines show the 9,150 square foot footprint of the 18,300 square foot two-story hospital
building actually constructed by the contractor. The shaded red box within the black lines shows the relative
size of the 5,300 square foot footprint that the Salang hospital would have occupied had it been constructed in
accordance with the designs provided for in the contract. It remains a question as to why the lot was
inappropriate for the 5,300 square foot building, but suitable for the 18,300 square foot building.


SIGAR 14-31-IP/Salang Hospital                                                                         Page 10
APPENDIX III - CONSTRUCTION THAT DEVIATED FROM CONTRACT
REQUIREMENTS
The contract’s statement of work defines the work required to be performed. It specifically provided that any
deviations from the statement of work must be approved through contract modifications. Federal Acquisition
Regulation 43.102, states that only contracting officers acting within the scope of their authority are
empowered to execute contract modifications on behalf of the U.S. government. Table 1 shows the 20-Bed
Salang hospital construction activities that deviated from contract requirements.


 Table 1 - SIGAR List of Deficiencies
                                                                                       Deficiency Identified in
                              Requirement                                                SIGAR Inspection

 Surgery/operating room, pharmacy, storage, vaccination,                     Required rooms or portions of the
 examination and mother care, delivery, sterilization room,                  building in which the listed services
 women and men wards, X-ray, male and female waiting rooms,                  could be provided were unavailable.
 registration, administration, toilet and health nutrition areas,
 advanced diagnostic, surgical, mental health, dental, physical              Quality of construction was poor, the
 therapy/ rehabilitation, emergency department, male and                     walls were cracking and due to roof
 female doctor offices, laboratory, pediatric services. security,            leaks a number of the rooms had water
 inpatient and outpatient healthcare delivery                                and mildew damage.

                                                                             Required separate toilet building did not
                                                                             exist. Toilets were constructed in the
 Toilet Building                                                             hospital building. Because only limited
                                                                             water was available from the local river,
                                                                             staff encouraged patients not to use
                                                                             hospital toilets.

 Guard Shack                                                                 Required separate guard shack did not
                                                                             exist.
                                                                             A primitive looking electrical system
 Electrical systems                                                          existed, but could not be tested because
                                                                             there was no electricity.
 Water well                                                                  Required water well did not exist.

                                                                             A plumbing system existed, but staff
                                                                             reported that it backed up, especially
 Plumbing system                                                             during rain and snow melt. It could not
                                                                             be inspected because of the limited
                                                                             availability of water.

 Two 30kW diesel generators                                                  Only one of the two required 30kW
                                                                             generators had been provided.

 Solar power system supporting structure                                     Required solar power system did not
                                                                             exist.
                                                                             Hospital staff and the subsequent
 Septic collection system                                                    USFOR-A task force inspection reported
                                                                             that the septic tank leaked.
Source: Bagram Regional Contracting Center awarded contract W91B4N-09-C-RP37 and SIGAR’s November 27, 2013, site visit.




SIGAR 14-31-IP/Salang Hospital                                                                                            Page 11
APPENDIX IV - COMMANDER’S EMERGENCY RESPONSE PROGRAM
DOCUMENTATION

The Commander’s Emergency Response Program (CERP) is governed by Money As A Weapon System–
Afghanistan, which covers the type of projects that can and cannot be funded by CERP, the approval levels
(based upon requested funding amounts), program responsibilities, project management, and other items
including the required project documentation. CERP-required documents are to be uploaded into the Combined
Information Data Network Exchange (CIDNE) database. Table 2 provides the results of SIGAR’s review of
documents for the 20-Bed Salang hospital project file that were required to be uploaded into CIDNE.


               Table 2 - Documentation Check List
                               Required Documents 12                 Found in    Not Found in
                                                                      CIDNE         CIDNE

               1. DD Form 577 Appointment/Termination Record for
                                                                        X
                  the Project Purchasing Officer and Paying Agent

               2. Appointment Memorandum for the Project
                                                                        X
                  Purchasing Officer/Paying Agent

               3. Afghan Data Report (ADR)                              X

               4. Command Group Endorsement                                            X

               5. DA Form 3953, Purchase Request and Commitment         X

               6. Cost Estimate                                                        X

               7. Statement of Work or Bill of Quantities               X

               8. Supporting Diagrams, Maps                             X

               9. Correspondence                                        X

               10. Legal Review                                         X

               11. Memorandum of Agreement or Sustainment Letter
                                                                                       X
                   from the Afghan government

               12. Project Performance Metrics                          X

               13. Letter of Justification                                             X

               14. SF-1442, Contract                                    X

               15. SF-1442, Contract modifications                      X

               16. SF-44, Purchase Order-Invoice-Voucher
                                                                        X
                   DD-250, Material Inspection & Receiving Report

               17. Commander‘s clearance memorandum                     X

               18. Major Subordinate Command Comptroller clearance
                                                                                       X
                   memorandum



12   Source: Money As A Weapon System–Afghanistan, May 15, 2009


SIGAR 14-31-IP/Salang Hospital                                                                    Page 12
           19. Contractor Quality Control and Government Quality
               Assurance Plan/Visits                               X

           20. Operations and maintenance manuals, spare parts,
                                                                         X
               and post construction guides

           21. As built drawings signed by the recipient
                                                                         X
               acknowledging receipt and acceptance

           22. Final punch list including a notice that all
                                                                         X
               deficiencies have been corrected and accepted

           23. Contractor release of claims                              X

           24. Acceptance memorandum signed by the receiving
               party, U.S. government supervising engineer, and
               contractor                                          X

           25. Final inspection and completion letters                   X

           Total Documents                                         15   10 A

           Notes:
           A 10 out of 25 documents missing, or 40 percent.




SIGAR 14-31-IP/Salang Hospital                                                 Page 13
APPENDIX V - ACKNOWLEDGMENTS

Scott Harmon, Senior Inspections Manager
Brian Flynn, Senior Audit Manager
William Shimp, Senior Auditor
Arthur Granger, Senior Auditor
Ron Riach, P.E., Engineer
Ron Snyder, P.E., Engineer




SIGAR 14-31-IP/Salang Hospital             Page 14
                                 This inspection report was conducted
                                   under project code SIGAR-I-011.




SIGAR 14-31-IP/Salang Hospital                                          Page 15
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
